No. 21-340

IN THE SUPREME COURT OF THE UNITED STATES

Orlando Carter,
Petitioner
v..
District of Columbia,
Respondent

CERTIFICATE OF COMPLIANCE WITH WORD LIMITATIONS

Pursuant to Supreme Court Rule 33.1(h), I hereby certify that the BRIEF OF
D.C. ASSOCIATION OF CRIMINAL DEFENSE LAWYERS AS AMICUS
CURIAE IN SUPPORT OF PETITIONER contains 2,625 words, excluding the
parts of the document exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and

correct. Executed on September 23, 2021.

  

R. TRENT MCGOTTER

BOYDEN GRAY & ASSOCIATES
801 17th Street NW, #350
Washington, DC 20006

(202) 706-5488
mecotter@boydengrayassociates.com
